SERVICE LIST
Students for Fair Admissions, Inc.
v
President & Fellows of Harvard College
No. 21-1199
Attorneys for Petitioner
William Spencer Consovoy
CONSOVOY McCARTHY PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(703) 243-9423
will@consovoymccrathy.com
Party name: Students for Fair Admissions, Inc.
Attorney for Respondent
Seth P. Waxman
WILMER CUTLER PICKERING HALE AND DORR LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
(202) 663-6800
Seth.Waxman@wilmerhale.com
Party name: President and Fellows of Harvard College

1

